NO. ________________

IN THE SUPREME COURT OF THE UNITED STATES

JAMES T. COLLEY, JR. – PETITIONER
VS
STATE OF FLORIDA – RESPONDENT

PROOF OF SERVICE
I, NANCY RYAN, do swear or declare that on this 6th day of May, 2021, as
required by Supreme Court Rule 29 I have served the enclosed the Corrected
PETITION FOR A WRIT OF CERTIORARI on the Attorney General’s Office by
electronic service to capapp@myfloridalegal.com, and mailed to James Colley,
#Y80029, Union Correctional Institution, P.O. Box 1000, Raiford, FL 32083.
I declare under penalty of perjury that the foregoing is true and correct.
Executed this 6th day of May, 2021.

/s/ Nancy Ryan
Nancy Ryan
Assistant Public Defender

